                          UNCLASSIFIED

       United States Department of State
     and the Broadcasting Board of Governors
               Office of Inspector General




Information Technology Audit

Knowledge Management at
 the Department of State:
 Learning from Successful
 Principles and Practices

    Report Number IT-A-03-08, July 2003

              This report has been reviewed under the
              Freedom of Information Act (5 U.S.C.
              552) for public release.

                              IMPORTANT NOTICE
 This report is intended solely for the official use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Office of Inspector General. No secondary distribution may be
 made, in whole or in part, outside the Department of State or the Broadcasting
 Board of Governors, by them or by other agencies or organizations, without prior
 authorization by the Inspector General. Public availability of the document will
 be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
 Improper disclosure of this report may result in criminal, civil, or administrative
 penalties.



                           UNCLASSIFIED
                                           UNCLASSIFIED




                           TABLE OF CONTENTS

RESULTS IN BRIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STUDY RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
          DEPARTMENT EFFORTS TO INSTITUTE KM . . . . . . . . . . . . . . . . . . . . . . 5
            E-Diplomacy Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
            Other Ongoing KM Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
          E-DIPLOMACY CAN BENEFIT FROM THE EFFECTIVE
          KM PRACTICES OF EXTERNAL ORGANIZATIONS . . . . . . . . . . . . . . . . . 9
            Table 1: Successful KM Principles and Practices . . . . . . . . . . . . . . . . . 10
          CHALLENGES TO IMPLEMENTING KM IN THE DEPARTMENT . . . . .                                                  11
            Recognizing the Benefits of KM within the Department . . . . . . . . . . .                               11
            Ensuring Department-wide Support for KM . . . . . . . . . . . . . . . . . . . . .                        11
            Addressing Cultural Barriers within the Department . . . . . . . . . . . . . .                           12
            Building KM Communities within the Department . . . . . . . . . . . . . . .                              13
            Using IT in e-Diplomacy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        13
APPENDIX A: SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
APPENDIX B: SUCCESSFUL KM PRINCIPLES AND PRACTICES . . . . . . . . . . . .                                           19
     Principle I: Recognizing the Benefits of
     KM to the Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          19
       Case Study on United Nations Development Program . . . . . . . . . . . . . .                                  23
     Principle II: Ensuring Organization-wide Support for KM . . . . . . . . . . . .                                 24
       Case Study on the World Bank . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                28
     Principle III: Appreciating Cultural Barriers to KM Success . . . . . . . . . .                                 29
       Case Study on the Inter-American Development Bank . . . . . . . . . . . . .                                   33
     Principle IV: Building KM Communities . . . . . . . . . . . . . . . . . . . . . . . . . .                       34
       Case Study on the National Aeronautics and Space Administration . . .                                         37




                                           UNCLASSIFIED
                                        UNCLASSIFIED



          Principle V: Using Information Technology in KM. . . . . . . . . . . . . . . . . . 38
            Case Study on the Federal Highway Administration . . . . . . . . . . . . . . . . 41
            Case Study on an Industry Research
               and Development Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
APPENDIX C: SELECTED BOOKS AND ARTICLES . . . . . . . . . . . . . . . . . . . . . . . 43
APPENDIX D: DEPARTMENT COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45
ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49




                                        UNCLASSIFIED
                                                UNCLASSIFIED




                                  RESULTS IN BRIEF

    Organizations increasingly are implementing knowledge management (KM)
strategies to maximize the benefits of what they know to help improve the effi-
ciency and effectiveness of their business operations. KM is a collaborative and
integrative approach to creating, capturing, organizing, accessing, using, and reusing
intellectual assetsto get the right information to the right people at the right time
to support management and decision-making. The Department of State (Depart-
ment) is working to coordinate its KM activities through the establishment of an
Office of e-Diplomacy, which is responsible for ensuring that information technol-
ogy (IT) investments meet the Departments needs, are consistent with the
administrations e-government initiatives, and fully exploit existing networks and
web technologies.

    This report presents the results of the Office of Inspector Generals (OIG)
study of the Departments strategy for implementing KM through its Office of e-
Diplomacy. Specific objectives of OIGs study were to evaluate the Departments
plans and project management structure for coordinating KM initiatives and
identify how effective practices from other federal, international, and private
organizations can be applied to help strengthen the Departments KM approach.
The scope and methodology for OIGs study are outlined in Appendix A.



RESULTS IN BRIEF
    The Office of e-Diplomacy is working to develop its strategy for implementing
KM Department-wide, which it expects to complete before summer 2003. The
office has networked extensively with a range of public and private organizations
to compile ideas on effective approaches to instituting KM in the Department. The
office is undertaking a number of knowledge sharing initiatives, including greater
use of existing classified and unclassified government networks for information
exchange and collaboration, as well as the Group of Eight (G8) Knowledge Man-
agement Project.




OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   1 .

                                                UNCLASSIFIED
                                                    UNCLASSIFIED



                 In developing its Department-wide strategy, the Office of e-Diplomacy can
             benefit from the effective approaches and lessons that OIG gleaned from its study
             of the KM activities of other federal, international, and private organizations.
             Specifically, OIG identified five key principles and corresponding practices that
             exemplify the various aspects of KM. The five principles are:
                  Recognizing the benefits of KM to the organization;
                  Ensuring organization-wide support for KM;
                  Appreciating the cultural factor in KM;
                  Building KM Communities; and
                  Using information technology in KM.
                Noteworthy examples and case studies of successful KM activities illustrate
             how organizations carried out these principles and practices in real life. (See
             Appendix B.)

                 While providing useful ideas for developing a KM strategy, these principles and
             practices also serve to highlight the challenges the Department faces to successful
             KM implementation. The Department recognizes some of these challenges and
             has taken steps to address them, such as ensuring senior management oversight for
             KM. However, considering other barriers to effective KM and determining how
             best to overcome them will be key. For example, the Department still needs to
             identify business requirements, such as those of its core diplomatic functions, as a
             basis for formulating its knowledge sharing approach. Further, it needs to translate
             that planned approach into real-life implementation through community-building
             and IT tools, as well as ensure organization-wide commitment and a support
             structure for coordinating KM initiatives. A major challenge is to identify the
             cultural barriers to KM and determine how best to counteract them.




2 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                    UNCLASSIFIED
                                                UNCLASSIFIED




                                         BACKGROUND

     Department-wide efforts to institute KM began with the Foreign Affairs Sys-
tems Integration (FASI) project that, although unsuccessful, shows the pitfalls to
avoid and provides a basis on which to pursue any subsequent knowledge sharing
endeavors. The project was a Department-led effort to acquire and test an Inter-
agency Collaboration Zone (ICZ), which is a standard system featuring a web-
based portal, applications, and tools for improved communications, information
sharing, and KM to support the U.S. foreign affairs community overseas. The
project was undertaken pursuant to recommendations of the Overseas Presence
Advisory Panel, which was instituted to assess U.S. representation and operations at
its embassies and consulates world-wide.1

     In a prior review, OIG evaluated the Departments strategy for establishing the
interagency system under the auspices of the FASI program office within the
Bureau of Information Resource Management (IRM). In November 2002, OIG
reported that the initiative was at risk of not meeting the objectives of effectively
supporting a decision on whether to proceed to global system deployment.2 Specifi-
cally, OIG found that FASI did not adequately identify system requirements,
consider alternatives, ensure interagency commitment, and conduct testing of the
ICZ overseas. Because of these concerns, OIG recommended that, after complet-
ing the pilot test, the project be streamlined and redirected.

    Early in 2002, the Office of the Under Secretary for Management expressed
concerns about FASI similar to those that OIG reported. Newly appointed the
previous year, the Under Secretary established an Information Technology Review
Group to ensure that technology initiatives were in concert with the Secretarys
vision for improved IT capabilities within the Department. In this context, the
Office of the Under Secretary for Management reviewed a range of IT projects
across the Department, including FASI, and engaged a consultant to lead a FASI
review group to help explore his concerns. As a result of its research, the FASI
review group identified problems similar to those that OIG reported regarding the
project. In line with OIG report recommendations, in September 2002, the Office
of the Under Secretary for Management announced plans to merge FASI with a

1
    Americas Overseas Presence in the 21st Century, Report of the Overseas Presence Advisory Panel (Nov. 1999).
2
  The Foreign Affairs Systems Integration Project Needs Redirection (Memorandum Report Number IT-A-03-02,
Nov. 2002).


OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   3 .

                                                UNCLASSIFIED
                                                    UNCLASSIFIED



             related messaging system replacement initiative to maximize the Departments IT
             investments. In January 2003, the Department decided to discontinue the FASI
             pilot.

                 From a larger perspective, and in the context of these reviews, the Under
             Secretary also asked about the KM concept in general and how applying it might
             benefit the Department as a whole. The Under Secretary asked the consultant who
             had led the FASI review group to identify the Departments ongoing KM activities
             and map them to underlying requirements. The consultant was to review the
             Departments business functions, how KM was being applied, whether it was truly
             needed, and if so, what changes were necessary in the approach. The consultant
             also was to design a KM projectthe G8 projectthat could be operational in less
             than 90 days to meet business requirements.

                 After numerous interviews with employees across the Department, the consult-
             ant determined that KM constitutes a major part of the Departments business and
             should not remain under the purview of IRM, but should be transferred to a central
             office under the auspices of the Office of the Under Secretary for Management.
             This official, as well as a number of other officials and documents that OIG
             consulted, suggested that such an office would help the Department focus its
             attention on managing knowledge to address several business challenges, including:
                  Capturing the knowledge of Foreign Service officers (FSO) to ease the
                   transition of their replacements as they rotate positions at overseas missions
                   every two to three years;
                  Safeguarding against potential knowledge losses, when about 45 percent of
                   the Departments 1998 workforce becomes eligible to retire by the end of FY
                   2006; 3
                  Overcoming current problems with antiquated, inefficient, and incompatible
                   IT systems at overseas posts, which hamper FSOs from getting the informa-
                   tion they need, when they need it, to conduct the Departments diplomatic
                   mission; and
                  Improving communications, collaboration, and knowledge exchange across
                   the Departments decentralized organizational structure and among the
                   Foreign Services core political, economic, administrative, consular, and
                   public diplomacy areas.
                 In June 2002, the Under Secretary for Management accepted these recommen-
             dations and formally established the Office of e-Diplomacy.
             3
              Federal Employee Retirements: Expected Increase Over the Next 5 Years Illustrates Need for Workforce Planning (GAO-
             01-509, Apr. 2001).


4 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                    UNCLASSIFIED
                                                UNCLASSIFIED




                                     STUDY RESULTS



DEPARTMENT EFFORTS TO INSTITUTE KM
    The Office of e-Diplomacys mission is to enhance the Departments foreign
affairs leadership by promoting a knowledge sharing culture and making new
technologies readily available to help provide faster, more effective service to
internal and external customers. This mission reflects the commitments of the
Secretary and the Under Secretary for Management to putting secure and innova-
tive systems at headquarters and overseas missions to support diplomacy in the
new century, ensuring that the systems meet business needs, and making better use
of the knowledge and experience resident in the Department.

     In FY 2002, the Office of e-Diplomacy was given a budget of about $3 million
to carry out its mission. With ambassador-level leadership, and staffed with ten
Foreign and Civil Service employees with extensive diplomatic, policy manage-
ment, and IT experience, the office represents a mix of employees from across the
Department. The office is responsible for developing a long-term KM strategy and
facilitating and coordinating ongoing KM activities in the Department. The office
also collaborates with the Departments employees and managers, as well as exter-
nal organizations, to identify effective KM approaches that will assist them in
developing the strategy. Ultimately, the office is to develop training and career
management opportunities to support implementation of the strategy and new KM
initiatives.

     The Under Secretary for Management directed the Office of e-Diplomacy to
develop a long-term strategy and milestones for implementing KM Department-
wide. The office strategy is expected to serve not only the Department, but also
the collaboration needs of homeland security and the interagency community by
facilitating the creation, sharing, and use of institutional information to achieve
government-wide objectives. Along with the Departments e-government initiative,
to which the Office of e-Diplomacy contributed significantly, KM is one of the key
elements of the Presidents Management Agenda, which focuses on improving the
management and performance of federal government operations.



OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   5 .

                                                UNCLASSIFIED
                                                    UNCLASSIFIED



             E-Diplomacy Activities

                 As of May 2003, the Office of e-Diplomacy was still working to develop its
             strategy and tools for implementing KM Department-wide. E-Diplomacy officials
             said that they expected to complete the strategy before summer 2003. The office
             has conducted broad research and networked with a range of government organiza-
             tions to gain a better understanding of KM and potential ways of applying it in the
             Department.

                 For example, e-Diplomacy representatives attend periodic meetings of the
             Federal Chief Information Officers Councils KM Working Group. This working
             group makes full use of the collective knowledge, experience, and abilities across
             government to compile guidance on the content management, processes, and
             technology needed for effective KM. With participation by more than 30 federal
             organizations, and having begun discussions with state and local groups on collabo-
             ration and knowledge sharing issues, the span of influence of the group is quite
             large. The Office of e-Diplomacy also participates in periodic conferences or
             forums sponsored by industry and academic organizations.

                 The Office of e-Diplomacy has implemented several initiatives to promote KM
             within the Department. For example, it has established an Intranet site, which
             provides information, Internet links, and other resources to assist employees
             interested in learning more about knowledge sharing tools and techniques. The
             office has posted a survey to the site, offering an electronic means for employees
             world-wide to submit their views on collaborative tools and techniques that might
             be useful to help increase efficiency in their daily work. In March 2003, e-Diplo-
             macy officials told OIG that they had received over 600 survey responses, high-
             lighting the critical need for electronic means of communication and collaboration
             among foreign affairs agencies at overseas missions. In conjunction with IRMs
             business center, the office has provided software that is tailored to support classi-
             fied information exchange and knowledge sharing by Department bureaus and
             missions worldwide. The office also hosts a weekly luncheon in the Departments
             headquarters cafeteria, providing an opportunity for employees to meet to ask
             questions and raise issues regarding knowledge sharing requirements and strategies.

             Other Ongoing KM Initiatives

                 One of the foremost objectives of the Office of e-Diplomacy has been to
             survey the ongoing KM initiatives and systems already in the Department. E-
             Diplomacy officials concede that the initiatives identified so far are generally the
             most visible ones, which in some instances only vaguely incorporate knowledge

6 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                    UNCLASSIFIED
                                                UNCLASSIFIED




sharing characteristics. These initiatives provide a preliminary basis on which the
office can build to accomplish its Department-wide KM goals. The demonstrated
benefits of these ongoing KM initiatives can help spur enthusiasm and support for
launching additional projects to address other knowledge sharing needs as they are
identified. Coordinated implementation of the KM initiatives can also help en-
hance the individual projects themselves by allowing their managers to build from
each others successes and lessons learned. In addition to the FASI project dis-
cussed above, the following are several knowledge sharing projects and activities
that both OIG and the Office of e-Diplomacy identified. The Office of e-Diplo-
macy is working to learn from, cooperate with, and in some instances assist these
activities.

     Center for Administrative Innovations

    Of the various initiatives identified, the Bureau of Administration, Center for
Administrative Innovations (A/CAI) has the most comprehensive KM approach in
the Department. Established in July 2001, A/CAI is to champion new ways of
improving services and systems to support administrative personnel and their
customers both domestically and overseas. The center uses various methods to
compile and share information on how to make the Departments administrative
operations best-in-class. For example, it networks with federal agencies, such as
the General Services Administration and the Departments of the Army and the
Navy, to glean information on effective strategies for improving administrative
service. A/CAI representatives also attend conferences hosted by private KM
organizations to leverage new knowledge sharing tools and techniques. A/CAI
brings together bureau employees in conferences and workshops focused on pursu-
ing efficiencies and cost savings in administrative service. A/CAIs key themes for
administrative innovation are good ideas, trends, outreach, and business transfor-
mation.

     State Messaging and Archive Retrieval Toolset

    The Office of e-Diplomacy is overseeing the collection of user requirements
for developing the State Messaging and Archive Retrieval Toolset. One of the
Secretarys highest priorities for improving management in the Department, this
messaging project will leverage modern technology to support the conduct of
diplomacy. Currently, the Department relies on disparate processes, procedures,
and systems, such as cable, fax, and e-mail, for creating and exchanging informa-
tion. Over the next two years, the Department will replace its outdated telegram
and e-mail technology with a secure, state-of-the-art, web-based system for han-


OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   7 .

                                                UNCLASSIFIED
                                                    UNCLASSIFIED



             dling virtually all types of Department documents. Through the new, centrally
             managed system, employees will use standard web browsers to access a single
             repository of electronic documents from anywhere in the world. Department users
             will benefit from a global directory and portable, personal identification. The
             system will also include remote access and powerful search and retrieval engines.

                 The messaging project office is using KM practices to determine the best
             approach to system design and implementation. A Messaging Steering Committee,
             created by the Under Secretary for Management in April 2002 and comprised of
             senior managers and technical representatives from the Departments core func-
             tions, meets periodically to consider requirements and alternative tools and tech-
             niques for addressing Department-wide messaging requirements. In coordination
             with the Messaging Task Force, the Office of e-Diplomacy has engaged consultants
             to conduct a user evaluation of the messaging system prototype.

                   Open Source Information System

                 The Office of e-Diplomacy has helped negotiate wider Department participa-
             tion in the Open Source Information System, a sensitive but unclassified network
             for web-based knowledge sharing and information exchange within the U.S. intelli-
             gence community. Over 50 major federal organizations, including the
             Departments Bureau of Intelligence and Research, connect to the network. The
             system is used to manage and share open source information (e.g., conference
             proceedings, technical reports, media literature), which is generally available to the
             public, even though its distribution is limited. More than 35,000 users can access
             the system via local dial-up calls from work, home, or temporary duty locations in
             the United States and 87 countries world-wide. The system has a rich infrastruc-
             ture and a potential for growth as boundless as the Internet it accesses. Increased
             access to the network is a major step forward in connecting the Department to
             other agencies systems, which is crucial for homeland security and foreign affairs
             collaboration.

                 The Office of e-Diplomacy chairs an interagency working group that is explor-
             ing ways to expand collaboration via the Open Source Information System. Under
             e-Diplomacys direction, a suite of Department administrative services identified
             by foreign affairs agencies as high priorities has been made available through the
             system. Moreover, the Office of e-Diplomacy has supported efforts to use the
             Open Source Information System as a means of connecting the Immigration and
             Naturalization Service to the Departments consular affairs database, which is
             important for homeland security. Similarly, the Office of e-Diplomacy is pursuing



8 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                    UNCLASSIFIED
                                                UNCLASSIFIED



greater use of existing classified government networks for information exchange
and collaboration as well.

     G8 Knowledge Management Project

     The G8 is comprised of major developed nationsCanada, France, Germany,
Italy, Japan, Russia, the United Kingdom, and the United States. The G8 Knowl-
edge Management Project was created in response to the Under Secretary for
Managements interest in demonstrating a KM initiative that could be designed and
implemented within a relatively brief period of time, and at a relatively low cost, to
support an established business practice. The focus of the project has been the
development of a KM web site that centrally provides information and services to
support those working on G8 issues within the Department. This web site will
ultimately link to the sites of other international organizations with which the
Department collaborates on G8 matters.

     Collaborative Application Technology Solutions
     Forum

    IRMs Systems and Integration Office leads this Department-wide performance
enhancement initiative, which is aimed at integrating and improving the use of
process-driven technology solutions to meet the needs of bureaus, offices, and
overseas missions. The focus of the initiative is on informal meetings where
applications developers share information, address common challenges, and seek
synergy among their current and future IT projects.



E-DIPLOMACY CAN BENEFIT FROM THE EFFECTIVE KM
PRACTICES OF EXTERNAL ORGANIZATIONS
    With establishment of its Office of e-Diplomacy, the Department has made a
good start in promoting KM to support the accomplishment of its foreign affairs
mission. To ensure effectiveness, however, the Department can benefit from
considering the successful KM practices, experiences, and lessons learned of other
organizations. From its study, OIG identified five key principles and corresponding
practices that the Department can adapt and apply, as appropriate, in instituting its
framework for KM.




OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   9 .

                                                UNCLASSIFIED
                                                      UNCLASSIFIED



                  Specifically, OIG found that effective KM organizations appreciate KMs
              potential for improving business operations. Senior managers in these organizations
              are committed to ensuring that office units support efforts to facilitate horizontal
              cooperation and communications. Recognizing the cultural barriers to implement-
              ing KM, effective organizations devise strategies to overcome them. These organi-
              zations have identified and assisted communities already engaged in knowledge
              sharing, and they have established additional communities that could benefit from
              KM. Further, recognizing that IT enables KM communities to grow and thrive,
              these organizations have identified and implemented the tools and technologies
              needed to support it.

                   Table 1 provides an overview of the five key KM principles and related prac-
              tices. The table is to serve as a composite guide for the reader and facilitate under-
              standing of the more detailed discussion of the principles and practices, along with
              illustrative case studies, provided in Appendix B.

              Table 1: Successful KM Principles and Practices

                  PRINCIPLE I:               PRINCIPLE II:              PRINCIPLE III:            PRINCIPLE IV:             PRINCIPLE V:

                                                                   Appreciating              Building KM                Using Informa-
              Recognizing the            Ensuring Organi-
                                                                   Cultural Barriers                                    tion Technology
              Benefits of KM to          zation-wide                                         Communities
                                                                   to KM Success                                        in KM
              the Organization           Support for KM


              Practices:                 Practices:                Practices:                 Practices:                Practices:

              ·   Understanding          ·   Securing              ·    Understanding         ·   Defining and          ·   Understanding
                  the KM concept             executive-level            cultural                  identifying KM            the role of IT

              ·   Recognizing the            support and                hindrances to             communities
                                                                                                                        ·   Choosing the
                                             sponsorship                KM
                  benefits of KM                                                              ·   Supporting KM             appropriate

              ·   Identifying critical
                                         ·   Designating a          ·   Overcoming                communities               technology
                                             focal point for            cultural
                  business needs
                                             KM                         barriers              ·   Fostering             ·   Managing and
                  as a basis for KM                                                                                         sustaining IT
                                                                                                  innovative
              ·   Appreciating
                                         ·   Providing                                            community                 and data
                                             funding and                                          activities
                  different
                                             staff re-
                  approaches to
                                             sources
                  applying KM

              ·   Managing and
                                         ·   Documenting
                                             KM directions
                  measuring KM
                  results




10 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                      UNCLASSIFIED
                                                UNCLASSIFIED



CHALLENGES TO IMPLEMENTING KM                                                  IN THE DEPARTMENT
    Since its inception, the Office of e-Diplomacy has taken a number of actions in
line with the effective KM principles and practices that OIG identified from its
study of external organizations. The following is OIGs assessment of the progress
made and the challenges that the Office of e-Diplomacy still faces to implementing
KM Department-wide. The office should consider these challenges and the sugges-
tions for overcoming them as it completes the development of its long-term KM
strategy to present to senior management.

Recognizing the Benefits of KM within the
Department

    The establishment of the Office of e-Diplomacy demonstrates the
Departments recognition of the potential benefits in implementing KM to help
improve the effectiveness of its conduct of diplomacy world-wide. E-Diplomacy
officials believe that their studies of ongoing internal and external KM initiatives
provide a sound basis for moving forward with planning for KM implementation.
However, the office still faces challenges in translating KM concepts and ideas into
a comprehensive approach that is realistic for the Department.

    The Department needs to determine its specific knowledge sharing require-
ments and what it seeks to accomplish through implementing KM. Only then can
the Department identify the most appropriate strategies for instituting KM, building
on its own studies and the examples OIG found and described in the five principle
areas. (See Appendix B.) Further, the Department will have to determine how to
monitor performance and measure results to demonstrate the impact of those KM
strategies, which will be critical to ensuring support Department-wide.

Ensuring Department-wide Support for KM

     The Under Secretary for Management has provided for central advocacy and
oversight of Department-wide KM activities by establishing the Office of e-
Diplomacy. The director of e-Diplomacy is also the Departments chief knowledge
officer and has clear responsibility for enhancing the Departments foreign affairs
leadership by fostering a culture that embraces knowledge sharing and technologi-
cal innovation. Staffed with representatives of the different employee functions
from across the Department, the Office of e-Diplomacy is to ensure a business
focus for KM, in contrast to the FASI approach discussed above.



OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   11 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED



                  However, the office first needs to be made permanent so that it can continue to
              function effectively to carry out its mission. Though allocated 12 staff positions,
              the office has only been able to recruit ten full-time employees. Further, as a proof-
              of-concept operation, its employees were assigned for one-year basis and the office
              is now at a point where personnel are being reassigned, creating resource con-
              straints. Only after the office is made permanent will it be able to compete for the
              personnel and the funding it needs to be an effective force in promoting KM
              Department-wide.

                   Making its KM voice heard and accepted at the highest levels of the Depart-
              ment remains the sticking point for the Office of e-Diplomacy as well. The sup-
              port of senior management will be critical, especially given the anticipated cultural
              resistance to adopting KM within the Department. Officials told OIG that the
              Secretary is committed to IT improvements and has placed priority on the efforts
              of the Office of e-Diplomacy. Whether through mandate or policy direction,
              senior managements commitment to knowledge sharing will need to be communi-
              cated to promote KM at all levels within the Department. Then, e-Diplomacy
              officials will have the backing and influence needed to ensure that other managers
              from across the bureaus, offices, and overseas missions follow suit. Where the
              managers themselves adopt KM terminology and model knowledge sharing behav-
              iors, their employees will be encouraged to participate in or introduce new KM
              initiatives. As the Office of e-Diplomacy demonstrates the success of small KM
              projects and works incrementally toward larger knowledge sharing objectives,
              Department-wide commitment should follow.

                   Further, incorporating the e-Diplomacy approach and corresponding KM
              principles into the Departments overarching strategic planning processes can serve
              to reinforce organization-wide commitment to knowledge sharing. The Department
              may choose to emulate other organizations in establishing a senior-level KM
              council or steering committee to govern these KM planning decisions. Such a
              council, with Office of e-Diplomacy support, could help in establishing more
              specific policy to guide Department units in carrying out KM activities. As new
              initiatives are introduced, the balance between central e-Diplomacy oversight and
              funding versus the individual units responsibility for those initiatives will also have
              to be determined.

              Addressing Cultural Barriers within the
              Department

                  Perhaps the greatest challenge facing the Department is overcoming the cultural
              barriers to sharing knowledge. To develop appropriate, counteractive strategies, e-

12 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED



Diplomacy officials need first to assess the current environment. Several senior
officials told OIG that the tendency in the Department traditionally has been to
hoard and not share knowledge. Some said that the Departments culture is too
impossible and resistant to change. The Departments decentralized organization
structure, two-to-three year FSO rotations, and the competitive up-or-out policy
reinforce this mindset.

    Although ensuring senior managements support is a major factor in promoting
participation in KM activities in the Department, it may not be enough to change
the culture. More can be done to ease the transition from a KM plan to actual
implementation. Mandatory training, linking knowledge sharing to performance
appraisals, and providing awards and recognition for excellence in communications
and collaboration are all strategies for overcoming cultural resistance. Determining
the appropriate blend of these strategies will be key. Any cultural change, how-
ever, will not occur overnight. Some friction and lingering resistance may accom-
pany the ongoing change to a KM environment.

Building KM Communities within the Department

     Although the Office of e-Diplomacy has made progress in identifying some
ongoing KM communities, it could take steps to identify others that it is currently
unaware of and determine their structures, functions, needs, and constraints. Such
information would help the office determine how it can build upon or assist these
efforts. The Office of e-Diplomacy might also recommend alternative approaches,
such as creating web portals or improving coordination, to help the KM communi-
ties better meet their objectives. With e-Diplomacy support and direction, still
other KM communities might be established, and new and creative ideas imple-
mented, to meet identified knowledge sharing and collaboration needs.

Using IT in e-Diplomacy

    After the FASI experience, the Department appreciates the potential value of
IT in supporting, rather than driving, its KM program. The Office of e-Diplomacy
was designed to ensure this business focus, while also providing the technology and
tools needed to facilitate KM efforts. Maintaining this balance will be critical,
especially given the recent decision to shift e-Diplomacy to the IRM umbrella,
albeit via a new business process section within the IRM bureau. Specifically, in
June 2003, the Under Secretary for Management decided to reorganize IRM to
improve the Departments management of the range of e-government challenges,
including business-based planning, IT security, and knowledge management, and


OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   13 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED



              meet objectives of the Presidents Management Agenda. When the Office of e-Diplo-
              macy was created, there was no consensus on where it would permanently reside.
              The plan now is to create a Business Practices and Programs Group to combine e-
              Diplomacy with IRMs current Office of Enterprise Architecture and Planning and
              its Office of Customer Service. A deputy chief information officer, who is also the
              chief knowledge officer, will head the new group.

                   Working together, the Office of e-Diplomacy and Department bureaus and
              offices will need to determine appropriate and cost-effective IT solutions for
              meeting business requirements for knowledge sharing. IRMs assistance will be
              essential to help integrate existing KM systems, meet security and e-government
              goals, and identify still other technology needs of the Departments KM communi-
              ties. Providing for the effective maintenance and update of these KM systems, as
              well as the data they contain, is another strategy that must not be overlooked.




14 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED



                                                                                                      APPENDIX A



SCOPE AND METHODOLOGY
    To meet its review objectives, OIG identified guidance and relevant criteria for
designing and implementing KM programs. OIG conducted Internet research to
compile background information on the KM strategies of various organizations,
their ongoing KM initiatives, and the effective practices and lessons learned from
these initiatives. OIG also attended a conference sponsored by a leading consulting
organization to obtain general information on key KM concepts and principles.

    OIG then met with senior management within the Department to learn how its
approach to centralizing KM began. Specifically, officials within the Office of the
Under Secretary for Management told OIG about their review of ongoing IT
programs, including FASI, and their efforts to coordinate such KM efforts through
the new e-Diplomacy Office. Senior managers directly responsible for setting up
the e-Diplomacy Office told OIG about the mission and activities of this organiza-
tion.

     OIG then visited organizations within the Department that had KM or similar
initiatives in place before the Office of e-Diplomacy was established. Specifically,
A/CAI officials told OIG about their plans to improve administrative services
domestically and overseas through improved information exchange. Senior Man-
agement and Office of e-Diplomacy officials told OIG about a KM initiative to
improve formal and informal messaging throughout the Department.

    OIG met with representatives of the Office of the Under Secretary for Eco-
nomic, Business, and Agricultural Affairs and the Office of the Under Secretary for
Political Affairs to learn about the G8 project aimed at enhanced communications
and policy coordination on global issues among the eight member nations.

    Officials within the IRM Business Center provided additional information on
the G8 projects status, oversight, and funding. An IRM Systems and Integration
official shared with OIG their efforts to eliminate redundancy and support coordi-
nation among administrative systems through the Collaborative Application Tech-
nology Solutions forum.

   OIG also met with representatives of various external organizations to discuss
and obtain supporting documentation on their efforts to implement KM. Specifi-



OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   15 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED



              cally, officials from the following federal departments and agencies told OIG about
              their KM strategies, systems, and initiatives:
                   Department of Defense, Defense Information Systems Agency (DISA);
                   Department of Transportation, Federal Aviation Administration;
                   Department of Transportation, Federal Highway Administration (FHWA);
                   Department of the Army;
                   Department of the Navy;
                   National Aeronautics and Space Administration (NASA);
                   Office of Personnel Management;
                   Pension Benefit Guaranty Corporation; and
                   U.S. Agency for International Development.
                  OIG also reviewed General Accounting Office (GAO) reports and met with
              officials of the audit organization to discuss the results of its review of the
              Departments interagency collaboration efforts via the FASI program and to learn
              how it is applying KM to support internal audit work. The Mitre Corporation, a
              private, nonprofit organization, provided information on how knowledge sharing is
              ingrained in its culture, enabling it to concentrate on developing IT tools to support
              KM. In many instances, officials from these organizations demonstrated their
              knowledge sharing databases and web portals and provided OIG with books,
              papers, or electronic media to assist with OIGs KM study. Selected publications
              that OIG found useful to its study are listed in Appendix C.

                  Officials from academia discussed with OIG their role in helping to promote
              knowledge sharing by studying and documenting the cultural behaviors and KM
              activities of effective organizations. For example, OIG met with a George Mason
              University professor to share perspectives on what is necessary to implement a
              successful KM project. A consultant from the University Group and another from
              George Washington University, tasked by the Under Secretary for Management to
              define KM and identify the Departments need for it, told OIG about the signifi-
              cance of KM to an organizations business and the importance of understanding
              cultural influences when creating a KM project.

                  For international organization perspectives, OIG met with a World Bank
              official who discussed the pivotal role of senior executives in providing financial,
              policy, and organization-wide support to ensure KM success. Officials from the
              Inter-American Development Bank (IDB) told OIG about their bottom-up ap-
              proach to coordinated management of KM activities. Further, OIG visited the


16 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED



following U.N. organizations to discuss how they are implementing KM to support
their disparate missions:
    United Nations International Childrens Emergency Fund (UNICEF);
    United Nations Development Program (UNDP);
    United Nations Development Fund for Women; and
    United Nations Population Fund.
    OIG shared with officials at the U.S. Mission to the United Nations the effec-
tive practices and lessons learned from its examination of the KM activities under-
way throughout the United Nations. In turn, these officials shared with OIG their
efforts to improve archiving, retrieval, and sharing of voluminous historical data on
United Nations activities and decisions, as well as restructuring and coordination
to enhance the missions internal operations.

    OIG conducted its review from June to December 2002 at the Departments
headquarters and other federal, industry, international, and academic organizations
in Washington, D.C., and at the United Nations in New York. OIG would like to
thank the officials from these organizations whose advice and assistance through-
out this project have been invaluable. OIG coordinated the KM study with its
prior review of the Departments management of the FASI program to support
interagency communications and collaboration. OIG obtained comments on a
draft of this report from the Office of e-Diplomacy. Based on the comments and
as appropriate, OIG made minor revisions throughout the report to ensure that the
information presented is accurate and up-to-date. A copy of the comments is
included at appendix D. Major contributors to this report were Frank Deffer,
Sondra McCauley, Cassandra Moore, and Pamela Young. Comments and questions
about the report can be directed to Ms. McCauley, audit manager, at
mccauleys@state.gov or (703) 284-2770.




OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   17 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED




18 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED



                                                                                                      APPENDIX B



SUCCESSFUL KM PRINCIPLES AND PRACTICES
Principle I: Recognizing the Benefits of KM to
the Organization

     KM has the potential to transform day-to-day business operations and yield
faster and better information and services. However, to formulate an effective
strategy for improved knowledge capturing and exchange, an organization should
first pinpoint what it seeks to accomplish through KM. Identifying fundamental
business requirements serves as a basis for determining which of the many possible
KM approaches (e.g., web-based sharing, networking, or community building) is
appropriate for an organization. Measuring outcomes from KM implementation
will help ensure that the organization is reaping the benefits of KM and convince
senior managers of its usefulness.

     Understanding the KM Concept

    As with any promising discipline, organizations offer different definitions and
perspectives on KM, but fundamentally KM means leveraging the knowledge that
already exists in an organization to strengthen its functions, often to gain a com-
petitive edge. KM is not primarily about technology: it is about people. It is also
not just about information: it is about what people perceive, discover, or learn. It
has at its core the concept that the most valuable assets in an organization are the
experience and expertise of its people. It may be positive knowledgeeffective
practices and valuable informationor it may be lessons learned about what not to
do in the future. The knowledge may be resident not only with an organizations
employees, but also with its customers, partners, and other key stakeholders. The
challenge of KM is unlocking this knowledge and promoting its transfer and reuse
to the benefit of the whole organization. Creating an environment where people
who have the knowledge are comfortable about sharing it is just as key.

     Recognizing the Benefits of KM

    Organizations OIG studied have found that the true value of KM is the im-
proved teamwork and enhanced skills derived from employees interaction, and not
just the content or information that results from networking and sharing. For


OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   19 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED



              example, knowledge sharing among employees can help spur creativity, individual
              competencies and skills, and overall workforce morale. It can bridge the gaps
              created by organizational dispersion, allowing employees in one business location
              to identify and tap into information and expertise in another location and thereby
              avoid duplication. The trusted group that emerges can give employees a strong
              sense of professional identity and instill confidence in discussions where they
              present new ideas.

                  Where an organization promotes collaboration, it has greater potential to attract
              and retain talented employees who might leave if they could not introduce im-
              provements to their work processes. KM can also safeguard against potential losses
              when employees do leave an organization and take their wisdom and experience
              with them. Capturing or transferring their know-how before they depart can reduce
              learning curves and ease the transitions for other employees assigned to fill the
              vacancies they leave behind.

                  Effective organizations recognize that there are many economic and manage-
              ment benefits to KM as well. They know that adopting KM as a management tool
              helps them to accomplish mission goals, increase productivity, and reduce waste.
              For example, they use KM to minimize risk and uncertainty by giving managers
              direct access to the knowledge needed for effective decision-making. They find
              that it helps reduce operating costs by integrating business processes across such
              organizational elements as marketing, sales, and warehousing. Such cross-organiza-
              tional sharing also has an equalizing effect of bringing poorer performing units up
              to the level of better units. This, in turn, can produce more effective and stream-
              lined operations, helping to transform the manner in which departments, divisions,
              and indeed entire organizations do business. The end result may be better products
              or services from an organization to its customers.

                  As such, effective organizations perceive leveraging knowledge as an impera-
              tive rather than an option, allowing them to flourish and keep pace with competi-
              tors in the current business environment. Where organizations gain a leading edge
              through KM, it becomes harder for competitors to overtake them. To maintain that
              lead, organizations retain KM as a constant, never-ending discipline.

                    Identifying Critical Business Needs as a Basis for
                    KM

                 An organizations KM strategy should be rooted in its fundamental business
              needs and objectives, for it has to know how managing knowledge will enhance its
              mission. Where KM efforts are linked to real business needs, they have the poten-


20 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED



tial to be successful. Where they are not, an organization can end up with an
expensive collaboration system or process that has no real value or purpose.

    To link KM to business needs, organizations must first have a good understand-
ing of their fundamental missions and operations and the security needed to protect
them. With this understanding, organizations can best pinpoint where and how to
focus their KM efforts for the greatest results. According to industry experts, KM
is best applied where an agency is hurting most; that is, where it is not performing
as well as it might and needs to rethink how best to work toward its mission. In
addition, organizations can focus KM efforts on areas with high costs, the greatest
revenue potential, and the biggest competitive threats. Another good time to
consider using KM is when an organization notices redundant or inefficient pro-
cesses, which cause the employees to spend too much time searching for informa-
tion instead of being productive.

     Many organizations link KM implementation with events, such as layoffs,
retirements, and mergers; however, an organization should not wait for such major
shake-ups to surface before beginning KM. Whatever the organization ultimately
decides in terms of when or where to apply KM, officials should remember that the
business environmentinternal and externalwill continue to change. As such,
KM strategies must also change to meet those evolving needs.

     Appreciating Different Approaches to Applying KM

     Organizations used a range of KM approaches to address identified business
needs. For example, some relied strictly upon people-based initiatives, such as
community building, workshops, and networking, to encourage collaboration.
Others focused on computer-based strategies, such as web portals, collaborative
tools and applications, or e-mail servers, to support the transfer of knowledge.
More often than not, organizations used a combination of the two. Recognizing
that there was no one way, or right way, to implement KM, they all chose strategi-
cally and carefully to adopt the strategies and projects best suited to their organiza-
tional needs.

     Managing and Measuring KM Results

    Effective organizations recognize that performance monitoring is a vital and
important step to ensuring KM success. Measures can help determine the degree to
which organizations are reaping the benefits of KM. They can ensure that the
knowledge sharing strategies implemented are effective and on track. If an organi-
zation does not measure its KM activities and results, it will have a hard time

OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   21 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED



              understanding what is working and what is not. Measures can also help determine
              the need for and the design of future KM systems and initiatives. Ultimately, they
              can provide the data needed to communicate with senior managers and stakehold-
              ers on the KM progress made.

                  OIG found that organizations generally struggled with identifying and adopting
              the appropriate measures to assess the value of KM. They were able to put some
              sort of indicators in place to help demonstrate progress and performance. The
              measures they used differed throughout the KM project life cycle. At the beginning
              of an initiative, when not a lot is known about the KM project, organizations
              focused on inputs or contributions, such as vested dollars, or staff time. Subse-
              quently, they measured KM activities, such as employee participation in KM
              communities or the types of information asked for and received from newly estab-
              lished KM help desks. A number of organizations counted the web page hits to
              their KM Intranet and Internet sites.

                  As a KM initiative progressed, the focus of measurement moved toward
              outputs and results. At this point, what the organization measured generally
              depended on the goal that KM was helping to achieve, not the KM effort itself.
              For example, UNDP consolidated its results-oriented reports into a large database
              that summarized accomplishments, shortfalls, and the differences made by KM.
              (See the following case study.) Further, a university professor suggested surveying
              participants in areas where KM had proven successful to discuss the knowledge
              sharing changes made, pinpoint barriers to success, and determine the degree to
              which KM had become ingrained in the culture. Organizations must be prepared to
              accept some degree of uncertainty in relying upon such subjective measures to
              evaluate the impact of KM.




22 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED




              Principle I: Recognizing the Benefits of KM to the Organization

                    Case Study on the United Nations Development Program

         KM is a key part of UNDPs strategy for helping countries build and share solutions to
     development challenges. Working through its offices in 135 developing countries, UNDPs
     operations are based on dispersed capabilities and decentralized networks. UNDPs Bureau for
     Development Policy takes a matrixed, regionalized approach to supporting the country offices,
     providing policy advice to its national counterparts through a network of nine Subregional
     Resource Facilities (SURFs). UNDP also links its staff through a series of networks to share
     knowledge and experience on specific thematic topics.

          UNDPs KM program began about four years ago through the efforts of a staff member
     who had returned to New York after assignment to several country offices. Knowing firsthand
     that specialist support from headquarters to the country offices was inadequate and not well
     coordinated, this official sought ways to address the problem. In 1999, with the responsibility
     for reorganizing the Policy Bureau, this official introduced the SURF concept, whereby specialists
     provide country offices with demand-driven policy services. Recognizing that the bureaus 100
     doctorate-level experts had tended to hoard rather than share knowledge, only 20 were retained
     after the reorganization. The bureau subsequently recruited 80 additional specialists through
     internal and external means.

          In a parallel attempt to improve headquarters support to the country offices, the same staff
     member asked eight country officers to e-mail to a consultant several questions to which they
     needed answers. Instead of waiting for the consultant to respond, the country officers began
     answering each others questions, realizing for the first time how much they individually knew
     and how they could help one another. Recognizing the effectiveness of such networking and
     the potential benefit it held for all UNDP, the staff member presented the idea to senior
     management, who agreed to formally institute the knowledge networking approach. By
     January 2003, there were 3,000 subscribers to the e-mail discussion groups, which UNDP
     officials told us are perhaps the most developed of all the U.N. organizations.

           The substantive support that UNDP provides to its country offices has greatly improved
     as a result of these KM activities. Unlike before, country officers now determine what support
     they need, and SURF specialists respond accordingly. Through the networks, the country
     officers also identify expertise and knowledge resources to help each other. UNDP measures the
     success of its KM approach by monitoring country officer satisfaction with the global knowl-
     edge networks. For example, in 2002, an independent survey found that overall country officer
     satisfaction with both the SURFs and networks rated 3.9 out of 5, up from 3.7 the previous
     year. UNDP also links KM to mission improvements in its annual reports on country
     accomplishments and strategic results.



OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   23 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED



              PRINCIPLE II: ENSURING ORGANIZATION-WIDE SUPPORT FOR
              KM
                   Senior managers provide the impetus for KM success, but although they have
              the resources and authority needed to support KM implementation, they cannot do
              it alone. They need to designate an individual or office with responsibility for
              fostering and overseeing KM day-to-day. This advocate can serve to document the
              organizations KM approach, linking it to the strategic business plans and direc-
              tions. From a central vantage point, and with staff support, this advocate also has
              responsibility for networking among employee groups and coordinating KM activi-
              ties organization-wide.

              Securing Executive-level Support and
              Sponsorship

                   Senior management support is a major contributor to the success of an
              organizations KM program. Where senior officials understand and appreciate the
              benefits of KM, they can champion its incorporation into an organizations vision
              and strategic plan. Senior officials are well positioned to communicate the KM
              vision to all levels of the organization, outlining strategies and techniques for its
              practical application. They also have the authority, influence, and resources needed
              to implement and sustain the programs. To demonstrate the commitment to KM
              and build trust across the organization, senior managers have the foremost respon-
              sibility for embracing KM behavior by using KM terminology, providing support for
              KM initiatives, and participating in KM activities. They also can promote a KM
              culture by offering rewards and incentives to employees for adopting effective
              knowledge sharing and collaborative behaviors.

                  Officials at several organizations discussed with OIG how executive-level
              sponsorship was critical to the success of their KM efforts. For example, the
              Secretary of the Army issued a written mandate that all employees and systems be
              linked to Army Knowledge On-line, the military services Internet-based knowl-
              edge sharing and collaboration system. As a result, the system is widely used to
              provide a range of information and services, such as travel schedules, pay scales,
              voucher applications, and medical appointments scheduling. Conversely, when
              officials at UNICEF tried to implement KM without the support of senior leader-
              ship, the project never met with acceptance across the organization. These officials
              learned the hard way that without top-down commitment and clear business
              drivers, a KM effort is likely to fail.



24 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED



Designating a Focal Point for KM

    Effective KM requires coordination by senior individuals, centrally positioned
and able to influence those empowered to fund and effect organizationwide KM
decisions. These KM officials must also be familiar with the organizations culture
and business needs and able to network and promote KM communities among
employee groups. Too often, however, KM projects are initiated and managed by
IT professionals, who may be knowledgeable about hardware, applications, and
communications networks for KM, but are not familiar with the organizations
business needs. They are therefore more likely to develop KM solutions that are
biased toward technology, but not necessarily designed to meet employee needs.

    Designated KM focal points at the organizations that OIG visited varied widely
in terms of their positions and authority. The following are just a few examples of
the types of KM officials identified.
    The chief knowledge officer in FHWAs Corporate Management Office
     reports to the associate administrator, who oversees program reviews, quality
     assurance, and performance planning in addition to KM. The chief knowl-
     edge officer is directly responsible for coordinating implementation of KM
     organization-wide.
    The knowledge services officer within GAOs Chief Mission Support Office
     reports to the organizations chief financial officer. The knowledge services
     officer is exclusively responsible for managing KM-related operations, includ-
     ing a shared service center, central printing support, information services,
     records management, web content, publications, and graphics.
    UNDPs policy support coordinator reports to the deputy assistant adminis-
     trator and director, Bureau for Development Policy, and is supported by a
     network coordinator, who also works to increase knowledge sharing across
     the organizations many different employee groups.
    The World Banks KM sharing coordinator reports directly to the Banks vice
     president and is responsible for centrally managing the organizations many
     KM communities.
    Contractors within NASAs Academy of Program and Project Leadership are
     responsible for coordinating KM through project manager training and career
     development activities at NASAs ten centers nationwide.
    At times, these KM focal points were members or chairs of executive councils
responsible for making KM decisions and promoting its implementation across their
organizations. For example, DISAs KM council is comprised of mid- to senior-


OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   25 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED



              level representatives responsible for reviewing and approving all KM initiatives
              within the organization. One of the councils foremost goals is to eliminate redun-
              dancies and prevent inappropriate KM initiatives from being implemented. The
              chief knowledge manager, who chairs the council, has also developed an
              agencywide policy on KM and provides employee training on knowledge sharing
              and collaboration concepts upon request. Such KM advocates have foremost
              responsibility for networking with their counterparts in external organizations and
              forums, such as the Federal Chief Information Officer Councils KM Working
              Group or academic roundtable discussions, to elicit effective KM practices and
              lessons learned.

              Providing Funding and Staff Resources

                  Ideally, the central KM advocates or offices ideally should be supported with
              adequate funding and staff to carry out their responsibilities. OIG found that few
              organizations were able to accomplish successful KM initiatives without dedicated
              resources. Without a full appreciation for KM or its benefits, senior managers often
              were initially reluctant to allocate limited corporate resources for what they consid-
              ered a relatively new concept and potentially risky proposition. Central advocates
              or organizations therefore used creative funding strategies to further KM initiatives,
              or they encouraged participating units to contribute voluntarily from their opera-
              tions budgets. Only after these KM initiatives demonstrated success were officials
              able to gain the budgets and staff they needed to institutionalize their efforts.
              Fortunately, this trend is changing. Senior officials increasingly appreciate the
              potential benefits of KM and champion its implementation without first having to
              be convinced. More and more, they understand that KM is not merely a passing
              discipline, but is rooted in sound business management principles that warrant
              priority funding and ongoing attention.

              Documenting KM Directions

                  Although the importance of defining a KM strategy is often overlooked,
              successful organizations recognize that KM should not be introduced ad hoc.
              Rather, they outline their strategies for applying KM to meet their business needs
              and broadly disseminate this information to their employees, often in the context
              of organizationwide strategic or business planning.

                  For example, officials at the United Nations Development Fund for Women
              brought together KM communities from across the organization to develop a strong
              strategic design that included business requirements planning. GAO officials also


26 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED



considered the various aspects of information sharing and their interrelationships in
planning their strategic direction. These aspects included information resource
management (technology, applications, data, and content), information manage-
ment (records and documents), and KM (social capital, human capital, and infor-
mation services). GAOs combined KM and strategic approaches were intended to
strengthen business relationships and acquire web-based tools for knowledge
sharing.

    Organizations often issued specific policies to ensure the adoption of KM
strategies. For example, as discussed above, the Army mandated KM implementa-
tion across the organization. Other organizations provided guidance on carrying
out various aspects of a KM program, such as managing content on a collaborative
web portal. A DISA official was drafting guidelines and defining KMs relation to
the agencys mission. Through this strategic approach and demonstrated successes,
the official was able to secure increases in KM budgets and gain employee support
for knowledge sharing initiatives. In contrast, Navy officials were reluctant to issue
KM policy, stating that the concept did not readily fit with its military culture.
Navy focused instead on coordinating KM teams, educating employees on KM
principles, and providing a forum for discussing KM ideas and frustrations.




OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   27 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED




                                 Principle II: Ensuring Organization-wide Support for KM

                                                      Case Study on the World Bank

                         The World Bank is highly acclaimed by academic and industry benchmarking organizations
                   for its effectiveness in applying KM principles and practices. The Banks first KM system
                   initiative in 1996 did not adequately identify business requirements or establish an effective
                   relationship with system users. Finding that the IT system provided little benefit to mission
                   performance, users barely used the system. A World Bank official who worked on the initiative
                   reflected that the key lesson from this failed system effort was build it and they wont come.
                   The initiative nonetheless provided a basic understanding of how the Bank could advance in
                   KM through the use of thematic groups, also known as KM communities. With the
                   support of the Banks president and commitment by the Board of Directors, a KM strategy
                   was incorporated into the Banks vision.

                        The World Bank undertook a second initiative to institute a KM system the following year.
                   The strategy was to identify problem and high profile areas that presented opportunities for
                   applying knowledge sharing principles to better accomplish the Banks international develop-
                   ment goals. As part of this effort, KM officials identified, documented, and studied over 100
                   ongoing KM communities, one of which had existed for about 20 years, and worked to better
                   coordinate them. Where appropriate, KM officials also encouraged the formation of new KM
                   communities comprised of subject area specialists that had similar interests and could benefit
                   from sharing their expertise. KM officials coordinated with IT and business representatives on
                   using the Intranet to bring together the information and applications used by the Banks
                   various regional subgroups. A rewards system was instituted to help promote these initiatives
                   and overcome cultural resistance to sharing across subdivisions. Beginning in 1998, the Bank
                   provided $60 million in annual funding for KM, owing in part to the demonstrated success of
                   the KM initiatives implemented the previous two years.

                        Because KM is now ingrained in the World Banks culture, less funding and fewer staff
                   resources are now needed to coordinate KM activities. Specifically, at one time, the KM staff
                   consisted of approximately 70 people. However, given concerted efforts to mainstream KM
                   and shift responsibility for continued knowledge sharing to program units, currently only three
                   officialsa KM sharing coordinator and two staffare assigned to oversee KM activities
                   organization-wide. A consultant who worked on a team of seven staff under the direction of
                   the KM program director has served as a major proponent for KM within the Bank. In 1996-
                   99, the consultant worked closely with the Banks Chief Information Officer to identify the
                   tools and technologies needed to effectively support KM. Key IT components of the Banks
                   KM effort include use of the Internet and Intranet and an online directory system. People-
                   centered activities to knowledge sharing include continued use of thematic groups, advisory
                   services, brown bag luncheons, seminars, and videoconferences. The Bank holds more than
                   100 videoconferences for knowledge exchange each day.



28 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED



PRINCIPLE III: APPRECIATING CULTURAL BARRIERS TO KM
SUCCESS
    Perhaps the greatest challenge to effective KM is ensuring a culture that en-
courages sharing knowledge and building trusted business relationships. Overcom-
ing cultural resistance to KM requires focusing on employee needs, interactions,
and specific strategies to motivate them to change behavior. Although numerous
organizations offered incentives and awards for knowledge sharing, they generally
agreed that demonstrating success with small, initial KM projects is an effective
means of gaining organization-wide commitment as well.

Understanding Cultural Hindrances to KM

    Effective KM requires a supportive cultural environment. An organizations
culture is a combination of shared history, expectations, unwritten rules, and
traditions that affect employee behaviors. KM officials should have a good under-
standing of their organizations cultures and employee attitudes toward teamwork
and sharing. Where organizations already value knowledge sharing, successful KM
may only require facilitators and technological support. Too often, however,
organizational cultures are counter to KM principles. Officials at a number of
organizations said that their employees generally resisted adopting new technolo-
gies and collaborative behaviors in the workplace. Employees were reluctant to
trust each other and saw more value in keeping knowledge to themselves than
sharing it with competitors. Where information was shared, it generally occurred
among small groups of peers who already had collaborative relationships. Officials
in still other organizations stated that although their employees did not hoard
information or resist sharing it, their workloads did not allow time to participate in
KM activities.

Overcoming Cultural Barriers

     Changing an organizations culture to foster sharing and trust may be the most
difficult aspect of instituting KM. Employees often need to feel safe and see the
benefits to sharing before they embrace KM principles and behaviors. Overcoming
cultural resistance requires a people-focused approachexamining employee
needs, studying typical interaction and environmental factors, and determining the
incentives needed to encourage change. Simply providing employees with collabo-
rative tools and technologies may not be enough to compel them to share with
people they do not know. Knowing this, effective organizations are instituting


OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   29 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED



              pointed strategies for addressing cultural barriers to knowledge sharing, concurrent
              with implementing KM initiatives. They recognize that without such countermea-
              sures, any KM initiatives they introduce are at possible risk of failure.

                    Promoting Awareness and Training

                  Conferences, workshops, and publications are a means of promoting awareness,
              increasing commitment, and overcoming cultural barriers to sharing and collabora-
              tion. For example, IDBs knowledge sharing committee invites guest speakers
              every two to three months to discuss ways to improve the Banks KM activities.
              (See the case study.) Navy KM officials told OIG that they focus on educating
              employees about knowledge sharing principles in the context of tiger teams to
              support KM activities and meetings where employees can express their thoughts
              and frustrations and propose KM solutions. Further, NASA routinely invites guests
              to speak to employees on KM concepts and issues. NASA has also created several
              forums for project managers from across the agency to share their management
              success stories. NASA publishes many of the stories in bi-monthly editions of its
              Academy Sharing Knowledge magazine. Similarly, the Pension Benefits Guaranty
              Corporation plans to post on its web site a booklet of employee lessons learned in
              managing the pension plans of defunct companies.

                   Training is another good way to promote the benefits of KM. For example,
              NASAs incorporation of KM in its leadership development curriculum has signifi-
              cantly increased agencywide communications and collaboration. The Navy uses a
              collaborative portal to administer its Task Force Excel program, which provides
              online leadership and technical training to sailors to support their military careers.
              Task Force Excel is part of a Navy pilot in the submarine community, which has
              the dual purpose of demonstrating a KM success and providing real-time, relevant
              sailor training on effective ways to manage the turnover in boat crews every 80
              days. Further, GAO is seeking to combine KM with training to support the transfer
              of institutional knowledge and expertise to new and junior staff as senior, experi-
              enced staff retire or leave the agency. Such training should also help in managing
              attrition among the current generation of staff who increasingly do not view
              themselves as career federal employees.

                          Providing Push Technology

                   Placing routine services and information online and forcing employees to use
              collaborative systems is another way of promoting KM. As previously discussed,
              in line with mandating 100 percent participation by employees in KM activities, the
              Army uses such push technology on its Army Knowledge On-line portal. All

30 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED



civilian employees, soldiers, and their families are given accounts to access the
system. They have no alternative means to access services and information regard-
ing voucher payments, medical appointments, salaries, and clearances. Army
employees must also use the portal to retrieve e-mail. Some officials have sug-
gested that limiting the capacity for employees to attach documents to e-mail
messages would be another effective way to encourage the use of collaborative
systems for file sharing and data exchange instead. Using collaborative systems,
such as web portals, for document sharing also may provide wider accessibility,
improved version control, and increased potential for archiving and retrieval.

     Offering Incentives and Awards

    Officials from a number of organizations stated that incentives might be
needed to motivate employees to adopt knowledge sharing behaviors. For example,
some organizations include collaboration and knowledge sharing in their employee
job descriptions and performance appraisals. A few organizations rate supervisors
on the extent to which their subordinates participate in KM activities and make
KM a criterion for management-level promotions. The U.S. Agency for Interna-
tional Development incorporates 360-degree feedback from employees in evalua-
tions of supervisors performance in teamwork and collaboration. In recognition
of competing workloads and business demands, a few organizations support this
new KM job dimension by allowing staff to periodically devote time to knowledge
sharing activities.

    Further, organizations provided a variety of rewards and acknowledgments for
knowledge sharing activities. For example, one private organization gives employ-
ees cash awards for posting frequently referenced research papers to its web site.
DISA held a contest to name its KM portal and help draw attention to the site.
The winner was awarded a special prize and was featured in the agencys monthly
newsletter. KM officials at the Federal Aviation Administration reward employees
by sending them to KM training. The officials expect that employees will in turn
want to share what they learn with others. The Army awards employees that help
to discover new KM efforts across the department. The project management
success stories that NASA publishes in its Academy Sharing Knowledge magazine
give managers the satisfaction of seeing their names in print, as well as recognition
from their peers for their accomplishments. The FHWA also publicly recognizes its
employees with kudos, memos, and plaques for exceptional KM accomplishments.




OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   31 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED



                    Incrementally Implementing KM Initiatives

                  Although their strategies varied, officials that OIG interviewed generally agreed
              on the need to institute KM incrementally in an organization rather than trying to
              do it all at once. They found that starting with small KM initiatives that can be
              accomplished quickly, touting their outcomes and benefits, and then building on
              their successes is an effective means of overcoming cultural resistance to knowl-
              edge sharing. Recognizing that KM implementation is not necessarily easy, they
              also typically began in areas where major, cultural changes would not be required to
              achieve results. As one official concluded, KM in action makes it easier to sell the
              concept across the organization rather than try to institute wholesale business
              change. For example, after the tremendous success of its initiative to institute a
              collaborative portal and promote knowledge exchange among rumble strip experts,
              FHWA was inundated with requests to identify expertise, form KM communities,
              and reengineer business processes in other areas.

                   Officials that OIG interviewed anticipated that institutionalizing KM might
              take awhile. However, they did not necessarily believe that KM must remain a
              separate program forever. They expected that, over time, new collaborative behav-
              iors would become part of an organizations culture to the point where minimal, if
              any, oversight would be needed for KM to continue. For example, Navy KM
              officials said that they facilitate and coordinate many disparate and largely autono-
              mous KM efforts, but do not try to impose too much oversight. These officials
              expect to institutionalize KM so that eventually their office will no longer be
              necessary. Although the Navy had no set time frame for accomplishing this objec-
              tive, some organizations suggested that KM may need at least five years to become
              ingrained as a routine way of conducting business.




32 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED




                       Principle III: Appreciating the Cultural Factor in KM

                      Case Study on the Inter-American Development Bank

         Encouraging knowledge sharing across business departments was a big challenge for IDB
    officials. Although a lot of KM-like activity was already happening at the Banks headquarters,
    most of the sharing was among employees in the same departments, who did not see benefits
    to networking with unrelated departments.

         Staff interested in KM began a campaign to promote among managers and employees the
    benefits of cross-organizational knowledge sharing. A new council, the Knowledge Exchange
    Network Steering (KENSTEER) Committee, was established to encourage informal collabora-
    tion on KM organization-wide. The committee began to study how knowledge was exchanged
    and managed at the Bank. Committee members identified 23 unofficial KM communities that
    met routinely to share information across departments and sometimes with members outside
    the IDB. Most communities had coordinators and included a range of representatives from the
    various departments. However, identifying the KM communities was not enough; a greater
    task was to find a way to strengthen KM activities and programs at the Bank and get manage-
    ment support.

         The KENSTEER Committees strategy for overcoming cultural resistance to sharing
    centered on hosting a Knowledge Exchange Fair, modeled after similar events held at the World
    Bank and other federal agencies. The fair was the most successful initiative that the committee
    undertook, drawing vast participation from across Bank departments. Although the Bank did
    not offer any awards or incentives to motivate employees, the fair alone helped generate
    acceptance of KM and recognition of its benefits. It created pride among employees in the
    different departments, as evidenced by the displays and brochures they created, which helped
    them learn about each other and the range of Bank functions. The fair encouraged employees to
    join KM communities and stimulated interest in previously underused resources, such as the
    Banks legal library. The banks president and vice president were in attendance, helping to
    emphasize the importance of the event. Although most of the Banks KM activities were at
    headquarters, one country office representative assumed the cost of travel to Washington, DC,
    to participate in the KM fair and take ideas back to the field. One department has gone on to
    host its own virtual fair, sharing knowledge online, while others have included information
    related to the fair on their Intranet sites.

         Additionally, the Bank has created an enterprise portal to link about 152 web sites across the
    organization. The portal gives everyone, including country offices, access to commonly needed
    information. The portal team has held brown bag luncheons to train employees on use of the
    portal and collaboration tools. The KENSTEER Committees latest effort has been to launch a
    survey to assess the needs of Bank communities. Survey results show that many staff are
    interested in joining KM communities. Also, most KM community members who responded
    to the survey indicated that management support is crucial for their communities to progress
    and become more efficient. Despite these KM successes, Bank officials continue to confront
    cultural issues, including the preference by most KM communities to remain unofficial.




OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   33 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED



              PRINCIPLE IV: BUILDING KM COMMUNITIES
                  Promoting unity, trust, and an environment where employee groups with similar
              interests can interact to share knowledge and expertise is a fundamental part of
              effective KM. Rather than initially creating new KM communities, organizations
              that OIG studied identified existing networks and sought ways to facilitate and
              further their efforts. These organizations also advocated the introduction of
              innovative techniques for marketing knowledge sharing strategies and activities and
              encouraging wider participation and the formation of new KM communities to
              address emerging needs.

              Defining and Identifying KM Communities

                  Though the term is relatively new, KM communities have a long history. They
              emerge at work, school, home, and church, whenever groups of people come
              together because of a shared interest or goal. Some have names, and some do not.
              They cover a range of sizes and structures and are not necessarily bound by organi-
              zational associations. They may be formal organizations or freely structured, ad
              hoc groups that convene in a number of ways and for a variety of purposes.

                  For example, small close-knit groups of specialists may meet to share their
              experiences, knowledge, or effective practices in a given subject area. On a larger
              scale, businesses may host structured conferences, workshops, or roundtable
              discussion groups. Informal KM communities emerge as loosely structured net-
              works of employees come together in discussion groups, such as weekly brown bag
              luncheons. Community members are not limited to face-to-face interaction, how-
              ever. An array of collaborative tools and technologies is available in todays market
              to support their interaction.

                   KM communities are generally characterized by a great deal of trust and a
              willingness among members to help one another. They exist because their members
              value the group interaction and are defined by the members knowledge and com-
              mon understanding rather than by explicit tasks. For example, a member might
              share experiences on a high-profile project and discuss the problems encountered.
              In turn, other community members might offer insights and suggestions without
              actually getting involved in the project in question. The member presenting the
              project or concern for discussion could listen to the advice without feeling pres-
              sured to take it.

                 Such exchanges are a practical way of leveraging the combined know-how of
              employees to achieve the many mission and employee benefits discussed in prin-


34 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED



ciple I. Although its full potential may not be apparent when it is first formed, that
value can be realized as the KM community evolves over time.

Supporting KM Communities

    At the start of a KM program, organizations often identified the communities
already in existence to determine how they might be leveraged to formulate an
overarching KM strategy. They found that many communities have emerged
naturally over time, organizing their activities and structures on their own. In some
instances, the communities were found to function best without support or inter-
vention by their parent organizations. As experts suggest, some communities might
wither away, rather than flourish, under the spotlight. At other times, organizations
effectively built upon the communities already in existencedeveloping web sites
to support them, linking them to other related communities, or broadening their
scope to enhance other parts of the organization.

     For example, at the start of its KM program, World Bank officials identified a
number of communities that had been operating for more than 20 years and
worked closely with them to meet their needs. With central support and coordina-
tion, the number of KM communities at the Bank grew from ten to well over 100.
Similarly, on beginning a KM program, the IDB discovered it had more than 20
ongoing KM communities. The Bank integrated more than 150 individual Intranet
sites that supported these communities into a single web portal.

    Sometimes, organizations faced the challenge of forming completely new
communities to meet identified KM needs. They realized that although these
communities might not require much direct management involvement, they could
nonetheless use some leadership to get started and keep functioning. Organizations
understood the need to create safe, trusted environments where people would
voluntarily come together to try to understand each other. They recognized their
responsibility for providing central oversight to coordinate the KM communities
and prevent duplication. Although they found that administrative costs and over-
head might be minimal, they also knew that the members would need time, space,
and tools to collaborate effectively. The foremost challenge for organizations was
maintaining the tenuous balance of helping the communities identify the necessary
resources and make the right connections without overwhelming them.

     More often than not, organizations used facilitators to support community-
building. Facilitators are responsible for engaging existing community members and
providing the leadership needed to recruit others. Their main role is organizing and
encouraging the knowledge exchange processes and activities within the communi-
ties. Rather than seek to take control, impose their views, or dictate to community

OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   35 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED



              members, facilitators work to enhance their KM communities. In some organiza-
              tions, the facilitators emerged naturally from enthusiastic community members
              interested in furthering KM activities. Sometimes, they were recognized experts
              from inside or outside of their organizations appointed by management to promote
              exchange on strategically important topics. In other instances, the facilitators were
              technical personnel who acted as caretakers for collaborative portals, databases, or
              servers.

              Fostering Innovative Community Activities

                   Successful KM organizations continually pursued new and creative ways to
              advertise KM strategies, capture knowledge, and heighten the sense of community
              within their organizations. For example, rather than use technical jargon, they
              adopted more engaging terminology, such as warrior knowledge at Navy or
              knowledge exchange at IDB, to communicate KM concepts and techniques. On
              an ad hoc basis, organizations have set up displays and distributed memorabilia
              (e.g., pens or cups with KM logos) or literature to stimulate interest in KM activi-
              ties. As discussed above, the World Bank and IDB launched KM fairs to foster
              information sharing across their organization. Several organizations have built
              Intranet-based yellow page directories with employee pictures and profiles to
              assist in pinpointing expertise and needed competencies. Some organizations focus
              on fostering employee exchanges in the context of natural activities such as lun-
              cheons, happy hours, or midday breaks.

                  A well-known KM technique is the use of storytelling to capture the unspo-
              ken knowledge and business know-how. Storytelling builds upon the age-old
              practice of orally communicating values, traditions, history, and cultural experi-
              ences from generation to generation and has become an accepted technique among
              KM organizations. In auditorium-like settings, KM storytellers share anecdotes
              about their business experiences and lessons learned. They sometimes engage their
              audiences in question-and-answer sessions or role-playing to further the learning
              process. For example, the World Bank and DISA make extensive use of storytelling
              as a way of sharing knowledge and developing a sense of community within their
              organizations.

                  The most effective storytelling takes place face-to-face. However, this has the
              disadvantage in that the information may only be shared before a live audience at a
              given point in time. To address this issue, some organizations, such as the Federal
              Chief Information Officer Councils KM Working Group, capture the storytelling
              sessions on video or audiotape. The stories are often printed in books and maga-
              zines as well because it may not be easy for people to access the taped narrations.

36 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED




                                 Principle IV: Building KM Communities

             Case Study on the National Aeronautics and Space Administration

         One aspect of NASAs approach to instituting KM began about three years ago within the
    Academy of Program and Project Leadership. The Academy provides project managers at
    NASAs 10 centers with career development, knowledge sharing, and performance enhancement
    services and tools. The Academy created a Knowledge Sharing Initiative to instill a sense of
    community and convince project managers of the potential value of sharing knowledge and
    expertise across their organizational boundaries.

         The Academys director believes that knowledge is to be shared by practitioners in commu-
    nities for the good of the enterprise. Academy officials use a grassroots approach to market the
    KM concept by going to each NASA Center to meet with the project managers directly. The
    Academy relies on three principal methods to support knowledge sharing. First, it sponsors a
    Forum of Master Project Managers twice a year. Although creative thinkers from external
    businesses and agencies bring enthusiasm to the Forum by telling stories about their work
    experiences, the Forums where NASAs own project managers share best practices and transfer
    lessons learned from their prior assignments are the most rewarding. Past participants of the
    Forum have said that the storytelling presentations and follow-on discussions make this an
    invaluable experience. All Forum speakers are invited based on peer referral, which is the
    cornerstone of the Academys KM success.

        Second, the Academy hosts Transfer Wisdom Workshops to foster the exchange of
    experience, know-how, and lessons learned from senior to emerging project managers. The
    Transfer Wisdom Workshops are one-day events, held at individual Centers, part of the
    Academys strategy for encouraging the development of each Center as a knowledge sharing
    community. The workshops focus on small-group discussions of senior project management
    experiences and case studies.

          Academy officials believe that, beyond schedules and lists of dos and donts, project
    management decision-making includes many complexities and lessons learned that only stories
    can sufficiently and engagingly convey. They state that the career of every veteran project manager
    is full of short anecdotes and ongoing sagas from which everyone at the NASA community can
    benefit. Building on this hidden wisdom, the Academy therefore uses a third method, its
    Academy Sharing Knowledge magazine, to document and disseminate stories about the
    successes and failures of NASA projects. The magazine provides interviews with project
    managers, book reviews, and a column on effective practices. It is an on-line and print publica-
    tion, mailed to more than 5,000 recipients, including about 500 outside NASA. Academy
    officials said that the magazine has elicited good feedback from practitioners who contact the
    magazine to learn more about the project management approaches detailed in the articles.




OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   37 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED



              PRINCIPLE V: USING INFORMATION TECHNOLOGY IN KM
                  Technology can play a major role in supporting KM to help improve business
              operations. Choosing the appropriate IT solution based on business needs, how-
              ever, is critical. Perhaps just as important is providing for the maintenance of the
              technologies chosen and the data they contain to ensure that they remain useful
              and up-to-date for collaborative purposes.

              Understanding the Role of IT

                   Effective organizations recognize the role of technology in enhancing their
              knowledge sharing ability. They find IT invaluable in linking people across time
              and space, providing information and services rapidly and inexpensively, and
              capturing and documenting both tacit and explicit knowledge. To ensure KM
              success, however, they also understand the limits of technology when adopting IT
              solutions. They know that implementing technology to support KM does not, in
              itself, guarantee that knowledge sharing will occur. Although technology makes the
              connections and collaboration possible, it does not drive the cultural change.

                  Effective organizations also recognize that IT is not the most important compo-
              nent of KM. Rather, they understand that people and behavioral factors are key to
              information sharing. The efficiencies made possible by technology, however great,
              are no substitute for the trust and candidness that face-to-face communication can
              produce. As such, the most successful KM initiatives include both technology and
              interpersonal exchange. Neither replaces the other; however, one can greatly
              enhance the other.

              Choosing the Appropriate Technology

                  For years, organizations have acquired collaborative technologies to create and
              sustain effective business operations, store and manipulate data, and exchange
              knowledge. However, technology for technologys sake should not be the objec-
              tive. As discussed in principle I of this report, effective organizations identify their
              business requirements as a basis for KM. They emphasize that appropriate and
              cost-efficient technology solutions and corresponding security safeguards should
              map directly to those identified KM needs.

                  Too often, however, organizations have focused on tools and technologies
              rather than on fundamental business requirements for KM. Officials responsible
              for building their KM systems often were IT professionals who emphasized system


38 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED



functionality rather than user needs. Such technical leadership made it difficult to
create KM initiatives that addressed fundamental business problems and user
requirements. The World Banks initial unsuccessful approach to KM, discussed in
principle II above, illustrates this point. The approach failed, in part because
business requirements were not addressed in the system design. UNICEFs
Knowledge Network was another unsuccessful KM initiative. UNICEF officials
told OIG that the system was an idea before its time. It was independently con-
ceived by a couple of individuals, funded by external donors, and outsourced for
development without taking into account business processes and requirements. As
a result, the system had a low level of usage and was never fully adopted within the
organization.

     Determining the most appropriate technology tools to meet identified business
requirements has been a challenge for many organizations. Advancements in
technology have given organizations a plethora of IT options from which to choose
for meeting connectivity, communications, and security requirements. The lack of
funding to support knowledge sharing initiatives, however, has been a major
constraint to the type of technology an organization could ultimately select. As a
result, the organizations OIG studied found it best to first examine their current
systems to determine what might be leveraged to support their collaboration
initiatives before spending money on new or additional technology. Where pos-
sible, organizations also considered commercial off-the-shelf solutions before
undertaking new developments. Once systems were implemented, organizations
recognized the need to periodically reevaluate systems operations and make adjust-
ments to respond to changing business requirements.

    For example, the Army conducted an intense, multiyear study of several com-
mercially available products before deciding to develop its Army Knowledge On-
line portal. The Armys chief technology office and knowledge management group
worked with users and external entities to develop requirements and identify
effective practices to incorporate in the system development. They had no direct
allocation and therefore had to use year-end funding to acquire the system. The
portal operates on the Armys existing unclassified and classified network infra-
structures. The Army is currently using version 3 of the portal, which has evolved
over time to respond to changing user needs.

Managing and Sustaining IT and Data

    Implementing modern KM technology without provision for its management
and upkeep can ultimately render a system useless. As part of their systems initia-
tives, KM officials must consider how both technology and its information content

OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   39 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED



              will be sustained on an ongoing basis. The quality of an IT system can become
              irrelevant if the developer leaves no documentation for future reference or if the
              vendor is no longer in business to support system operations. Ongoing security
              controls are necessary to safeguard communications from intrusion, or unautho-
              rized access.

                  Failure to manage data content could result also in poorly functioning or
              underused KM systems with stagnant, inaccurate, or outdated information. For
              example, a database of expertise initially created in the IDBs financial sector is not
              being updated because of a lack of funding and tools to maintain it. Inadequate
              content management also contributed to the failure of UNICEFs initial Knowl-
              edge Network. There was only one content manager posting information to the
              network every six months, leaving its content out-of-date for the greater part of the
              year. As a result, the system never succeeded. Content management remains a
              problem for UNICEFs current Intranet. Lacking a formal, central means of
              governance, individual organizational units have scattered the same information on
              the Intranet in various locations.

                   The organizations OIG studied, especially those with large systems, have
              increasingly come to recognize the need to designate individuals with responsibility
              for equipment and content management from the outset of their KM system
              initiatives. Among these organizations, the responsibility for managing the systems
              included a range of officials, from administrators and KM coordinators or facilita-
              tors to systems officials and database managers. Some organizations used multiple
              content managers. For example, each KM community at FHWA has an administra-
              tor or site manager responsible for monitoring web portal content and activity and
              posting new information. The web site managers are subject-area experts, who also
              coordinate online discussions, weeding out inaccurate or inappropriate information.
              (See the case study.) Further, each of UNDPs nine main networks has a facilitator
              responsible for managing list servers and making online discussion questions and
              answers more direct and useful. A KM coordinator works with the facilitators to
              increase sharing and consistency across the networks.




40 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED




                         Principle V: Using Information Technology in KM

                         Case Study on the Federal Highway Administration

         KM at FHWA began with efforts to improve information and knowledge sharing among
     engineers on the design, construction, and installation of rumble strips.4 FHWA serves as a
     broker of this information to state and local governments nationwide.

          In 1980, FHWA engineers in several states demonstrated the effectiveness and life-saving
     benefits of rumble strips. However, the information was not readily available to other officials
     nationwide who needed it. FHWA initially sent out paper copies of the information, but this
     process proved too static, leaving recipients with inaccurate or old data although new informa-
     tion had emerged. FHWA considered providing the information on compact disks, but this
     method was inefficient as well. The solution was to create a KM community of people working
     with rumble strips, and a collaborative web site to support peer exchanges through online
     discussions and the posting of current rumble strip engineering information.

          FHWA officials called the rumble strip community discussions rolling meetings, which
     focus more on the data sharing among engineering experts than on the IT used to support their
     exchange. Their web site is replete with reports by highway safety engineers, policies on rumble
     strips, success stories, and videos of leaders in rumble strip installation. The web site has one
     managera rumble strip expertwho monitors all online discussions and responds to
     questions. The knowledge exchange in this rumble strip community has helped accelerate
     rumble strip installation and reduce the number of highway fatalities. FHWA officials have
     gone on to create many more KM communities based on the success of this project.

            Case Study on an Industry Research and Development Organization

          In contrast to FHWA, an industry research and development organization focused
     primarily on instituting technology to support its KM approach because its culture already
     supported collaboration and leveraging knowledge from previous work to facilitate new projects.
     The corporation has a central portal to link the many Intranets of its five component organiza-
     tions. The central portal is automatically updated as changes are made or new information is
     added to the Intranets in the sublocations. The portal incorporates a number of featuresfile
     sharing, online collaboration, search engines, video-streaming, and list serversto support
     business operations and promote a sense of community across the corporation. The central
     portal also has an online directory that includes employee profiles, resumes, and information to
     help in identifying individuals with special skills to meet specific needs. In addition to the
     central portal and associated Intranets, the corporation has developed several Extranets to
     support interaction with government sponsors. Several component organizations are planning
     to create their own Extranets to run applications and move beyond mere file sharing.




4
  Rumble strips are textured or audible/tactile treatments of paved roadways to warn and deter drivers from
leaving their travel lanes, running off of the road, or having head-on crashes.


OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   41 .

                                                UNCLASSIFIED
                               United States Department of State

                               Washington, D.C. 20520




MEMORANDUM
June 4, 2003




The Office of eDiplomacy appreciates the opportunity to comment
on the draft report.

We believe the report makes a significant contribution to the
development of a systematic approach to knowledge management in
the Department of State. In our own study of knowledge
organizations and of the current status of knowledge management
in the Department, we have reached essentially the same
conclusions as the OIG regarding the goals, hurdles and success
factors that must inform a Department-wide KM strategy.

Our emerging strategy proposal will address all of the issues
raised by the OIG. Therefore, we welcome the report as an
independent validation of the direction that we believe the
Department should take.

We recommend several clarifications to the text of the report.
They follow below.
                                2


                         PROPOSED CHANGES
                  (Explanations in parentheses)

Page 5, first paragraph under "Results in Brief."   Please change
last sentence to read:

     "The Office is undertaking a number of knowledge sharing
     initiatives, including greater use of existing classified
     and unclassified government networks for information
     exchange and collaboration, as well as the Group of Eight
     (G8) Knowledge Management Project."

(As drafted the sentence implied that eDiplomacy is coordinating
A/CAI, which is a completely separate office. Moreover, we see
the expanded use of existing networks (SIPRNet and OSIS) as a
major step forward for the Department.)

Page 8, 3rd paragraph under "Department Efforts to Institute
KM."

In the first sentence, please delete "by November 2002."

(The Under Secretary did not set a deadline for development of a
KM strategy.)

Please change the last sentence, to read, "Along with the
Department's e-Government initiative, to which the Office of e-
Diplomacy contributed significantly…"

 (M/P directed the overall eGovernment initiative. The
eGovernment strategy emerged from a small, multi-bureau drafting
group chaired by eDiplomacy.)

Page 9, 2nd full paragraph, penultimate sentence

     Please replace "for U.S. embassies in London and Budapest"
             with "by Department bureaus and posts worldwide."

(The Portal X project has expanded beyond Budapest, which
piloted the software, and London, which followed Budapest as an
early and active adopter. Our goal is for all CCP posts to be
able to establish classified homepages by the end of 2003.
Moreover, the original language inadvertently implies that
information exchange and knowledge sharing were intended only
for State entities – our goal is to use classified homepages as
                                3




a channel for publishing reporting and analysis that will
benefit all USG users of the classified network).

Page 9, last sentence, paragraph under "Other Ongoing KM
Initiatives."

     Please change last sentence to read, "The Office of
             eDiplomacy is working to learn from, cooperate
             with, and in some instances assist, these
             activities."
Page 11, sentence that ends at top of the page.
     Please add, "The Office of eDiplomacy chairs an interagency
             working group that is exploring ways to expand
             collaboration via OSIS. Under eDiplomacy's
             direction, a suite of State administrative services
             identified by foreign affairs agencies as high
             priority have been made available via OSIS.
             Moreover, eDiplomacy has supported efforts to use
             OSIS as a means for connecting INS to the
             Department's consular affairs database, which is
             important for homeland security."
                                                     UNCLASSIFIED




42 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED



                                                                                                     APPENDIX C



SELECTED BOOKS AND ARTICLES
Albert, Steven, and Keith Bradley, Managing Knowledge-Experts, Agencies, and Organi-
zations (Cambridge, U.K.: Cambridge University Press,1997).

Barquin, Ramon C., Alex Bennet, and Shereen G. Remez, Knowledge Management: The
Catalyst for Electronic Government (Vienna, VA: Management Concepts, 2001).

Choo, Chun Wei, The Knowing Organization: How Organizations Use Information To
Construct Meaning, Create Knowledge, and Make Decisions (New York: Oxford Univer-
sity Press, 1998).

Dixon, Nancy M., Common Knowledge: How Companies Thrive by Sharing What They
Know (Boston: Harvard Business School Press, 2000).

Fulton, Barry, Leveraging Technology in the Service of Diplomacy: Innovation in the Depart-
ment of State, PricewaterhouseCoopers Endowment for the Business of Govern-
ment (March 2002).

Gladwell, Malcolm, The Tipping Point: How Little Things Can Make a Big Difference
(Boston: Little, Brown and Company, 2000).

ODell, Carla, and C. Jackson Grayson, Jr., with and Nilly Essaides, If Only We
Knew What We Know (New York: The Free Press, 1998).

ODell, Carla, Susan Elliott, and Cindy Hubert, Knowledge Management: A Guide For
Your Journey to Best-Practice Processes (Houston: American Productivity & Quality
Center, 2000).

ODell, Carla, et al., Stages of Implementation: A Guide For Your Journey to Knowledge
Management Best Practices (Houston: American Productivity & Quality Center,
2000).

Savage, Charles, M., 5th Generation Management, (Newton, MA: Butterworth-
Heinemann, 1996).




OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   43 .

                                                UNCLASSIFIED
                                                     UNCLASSIFIED




44 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                     UNCLASSIFIED




48 .   OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003


                                                     UNCLASSIFIED
                                                UNCLASSIFIED




                       LIST OF ABBREVIATIONS

                     A/CAI            Bureau of Administration, Center for Administrative
                                      Innovations
                       DISA           Defense Information Systems Agency
                        FASI          Foreign Affairs Systems Integration
                     FHWA             Federal Highway Administration
                         FSO          Foreign Service officer
                           G8         Group of Eight
                       GAO            General Accounting Office
                          ICZ         Interagency Collaboration Zone
                         IDB          Inter-American Development Bank
                         IRM          Bureau of Information Resource Management
                            IT        information technology
           KENSTEER                   Knowledge Exchange Network Steering (Committee)
                          KM          knowledge management
                      NASA            National Aeronautics and Space Administration
                         OIG          Office of Inspector General
                       SURF           Subregional Resource Facility
                     UNDP             United Nations Development Program
                  UNICEF              United Nations International Childrens Emergency
                                      Fund




OIG Report No. IT-A-03-08 - Knowledge Management at the Department of State: Learning From Successful Principles and Practices - July 2003   49 .

                                                UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
